                                                                                   Office Of Inspector General
                                                                                  Office Of Audit Services
         DEPARTMENT OF HEALTH & HUMAN SERVICES

                                                                                   Region II
                                                                                  Jacob K. Javlts Federal Building
                                                                                   26 Federal Plaza
                                                 June 12, 2008                     New York, NY 10278



. Report Number: A-02-07-01056

 Ms. Jennifer Velez
 Commissioner
 New Jersey Department of Human Services
 Division of Medical Assistance and Health Services
 222 South Warren Street
 P.O. Box 700 

 Trenton, New Jersey 08625-0700 


 Dear Ms. Velez:

 Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
 General (OIG), final report entitled "Follow-Up Audit of the Medicaid Drug Rebate Program in
 New Jersey." We will forward a copy of this report to the HHS action official noted on the
 following page for review and any action deemed necessary.

 The HHS action official will make final determination as to actions taken on all matters reported. 

 We request that you respond to this official within 30 days from the date of this letter. Your 

 response should present any comments or additional information that you believe may have a 

 bearing on the final determination. 


 Pursuant to the principles of the Freedom of Information Act, 5 U.S.c. § 552, as amended by 

 Public Law 104-231, OIG reports generally are made available to the public to the extent the 

 information is not subject to exemptions in the Act (45 CPR part 5). Accordingly, this report 

 will be posted on the Internet at http://oig.hhs.gov. 


If you have any questions or comments about this report, please do not hesitate to call me, or 

contact Brenda Ryan, Audit Manager, at (212) 264-4677 or through e-mail at 

Brenda.Ryan@oig.hhs.gov. Please refer to report number A-02-07-01056 in all correspondence. 


                                              Sincerely,


                                             k~~.C~
                                             q~es P. Edert
                                              Regional Inspector General
                                               for Audit Services

 Enclosure
Page 2 - Ms. Jennifer Velez


Direct Reply to IllIS Action Official:

Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children's Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan A venue, Suite 600
Chicago, Dlinois 60601
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





   FOLLOW-UP AUDIT OF THE 

    MEDICAID DRUG REBATE 

   PROGRAM IN NEW JERSEY






                    Daniel R. Levinson


                     Inspector General 


                        June 2008 

                      A-02-07-01056


                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices 



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND

The Medicaid drug rebate program, which began in 1991, is set forth in section 1927 of the
Social Security Act. For a manufacturer’s covered outpatient drugs to be eligible for Federal
Medicaid funding under the program, the manufacturer must enter into a rebate agreement with
the Centers for Medicare & Medicaid Services (CMS) and pay quarterly rebates to the States.
CMS, the States, and drug manufacturers each undertake certain functions in connection with the
drug rebate program. In New Jersey, the Department of Human Services (the State agency),
Division of Medical Assistance and Health Services, administers the Medicaid drug rebate
program.

In 2005, we issued a report on the results of audits of the Medicaid drug rebate programs in
49 States and the District of Columbia (A-06-03-00048). Those audits found that only four
States had no weaknesses in accountability for and internal controls over their drug rebate
programs. As a result of the weaknesses, we concluded that States lacked adequate assurance
that all of the drug rebates due to the States were properly recorded and collected. Additionally,
CMS did not have reliable information from the States to properly monitor the drug rebate
program.

In our previous audit of the New Jersey drug rebate program (A-02-03-01024), we determined
that the State agency had adequate controls over its drug rebate program, with the exceptions of
reporting rebate activity on its “Medicaid Drug Rebate Schedule” (Form CMS-64.9R), offsetting
rebate collections against Federal expenditures, resolving disputes timely, estimating and
accruing interest on late or disputed rebates, and reporting interest collected on late rebate
payments to CMS. We recommended that the State agency:

   •		 revise its reporting procedures to ensure that Form CMS-64.9R is accurate and complete;

   •		 reduce its drawdowns of Federal funds through timely consideration of the drug rebates it
       has collected;

   •		 implement procedures to offer a hearing mechanism when dispute resolution procedures
       are not successful within 60 days;

   •		 estimate and accrue interest on overdue rebate balances; and

   •		 report $1,134,372 ($567,186 Federal share) of interest collected on late rebate payments
       as of June 30, 2002, and update its procedures to ensure that interest earned on late rebate
       payments in subsequent periods is reported on the “Quarterly Statement of Medicaid
       Expenditures” (Form CMS-64).

The State agency agreed with our findings and recommendations with one exception: the State
agency did not agree with our recommendation to estimate and accrue interest on overdue rebate
balances. The State agency stated that it would not be feasible to invoice manufacturers for


                                                 i
interest on overdue rebates because invoicing interest is complex and subject to continual rate
adjustments or changes in units.

This current review of New Jersey is part of a nationwide series of reviews conducted to
determine whether States have addressed the weaknesses in accountability for and internal
controls over their drug rebate programs found in the previous reviews. Additionally, because
the Deficit Reduction Act of 2005 required States as of January 2006 to begin collecting rebates
on single source drugs administered by physicians, this series of reviews will also determine
whether States have complied with the new requirement.

OBJECTIVES

Our objectives were to determine whether the State agency had (1) implemented the
recommendations made in our previous audit of the New Jersey drug rebate program and
(2) established controls over collecting rebates on single source drugs administered by
physicians.

SUMMARY OF FINDINGS

The State agency implemented the recommendations from our prior audit that related to drawing
down Federal funds, offering a hearing mechanism for resolving disputes, and reporting interest
on late rebate payments on its Form CMS-64. Although the State agency agreed to revise its
procedures for the preparation of its Form CMS-64.9R, no revisions have been made. The State
agency also did not implement our recommendation to estimate and accrue interest on overdue
rebate balances. The State agency established controls over collecting rebates on single source
drugs administered by physicians.

The State agency did not report current-quarter drug rebate activity on its Form CMS-64.9R.
Rather, the State agency reported the current quarter’s drug rebate activity as prior period
adjustments in the quarter that the service was provided instead of the quarter the rebate was
invoiced. Without accurate information on the State agency’s rebate activity, CMS cannot
provide adequate oversight of the Medicaid drug rebate program.

In addition, the State agency did not have adequate procedures to ensure that the entire amount
of interest due from manufacturers on late or disputed rebates was collected. The State agency
relied upon manufacturers to compute and submit the proper amount of interest with overdue
rebate payments. As a result, the State agency could not assure that all interest due on overdue
rebates was paid.

RECOMMENDATIONS

We recommend that the State agency:

   •   revise its reporting procedures to ensure that its Form CMS-64.9R is accurate, and




                                                ii
   •		 improve its procedures to ensure the entire amount of interest due from manufacturers on
       late or disputed rebates is collected.

STATE AGENCY COMMENTS

In its June 10, 2008, written comments on the draft report, the State agency concurred with our
recommendations. The State agency’s comments appear in their entirety as the Appendix.




                                               iii
                                                 TABLE OF CONTENTS 


                                                                                                                           Page



INTRODUCTION.............................................................................................................1



          BACKGROUND ....................................................................................................1 

              Drug Rebate Program .................................................................................1 

              Physician-Administered Drugs ...................................................................1                         

              Prior Office of Inspector General Reports ..................................................2 

              New Jersey Drug Rebate Program..............................................................2 


          OBJECTIVES, SCOPE, AND METHODOLOGY................................................3 

               Objectives ...................................................................................................3          

               Scope...........................................................................................................3        

               Methodology ...............................................................................................4             


FINDINGS AND RECOMMENDATIONS ................................................................... 4 


          IMPLEMENTATION OF PRIOR RECOMMENDATIONS ................................5 


          PHYSICIAN-ADMINISTERED SINGLE SOURCE DRUGS .............................6 


          RECOMMENDATIONS........................................................................................6                  


          STATE AGENCY COMMENTS...........................................................................6 





                                                                   iv
                                             INTRODUCTION 


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to certain low-income individuals and individuals with disabilities. The
Federal and State Governments jointly fund and administer the Medicaid program. At the
Federal level, the Centers for Medicare & Medicaid Services (CMS) administers the program.
Each State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Drug Rebate Program

The Medicaid drug rebate program, which began in 1991, is set forth in section 1927 of the Act.
For a manufacturer’s covered outpatient drugs to be eligible for Federal Medicaid funding under
the program, the manufacturer must enter into a rebate agreement with CMS and pay quarterly
rebates to the States. CMS, the States, and drug manufacturers each undertake certain functions
in connection with the drug rebate program.

Pursuant to section II of the rebate agreement and section 1927(b) of the Act, manufacturers are
required to submit a list to CMS of all covered outpatient drugs and to report each drug’s average
manufacturer price and, where applicable, best price. Based on this information, CMS calculates
a unit rebate amount for each covered outpatient drug and provides the amounts to States
quarterly.

Section 1927(b)(2)(A) of the Act requires States to maintain drug utilization data that identifies,
by National Drug Code (NDC), the number of units of each covered outpatient drug for which
the States reimbursed providers. The number of units is applied to the unit rebate amount to
determine the actual rebate amount due from each manufacturer. Section 1927(b)(2) of the Act
requires States to provide the drug utilization data to CMS and the manufacturer. States also
report drug rebate accounts receivable data on the CMS Form-64.9R, “Medicaid Drug Rebate
Schedule.” This is part of the CMS Form-64, “Quarterly Medicaid Statement of Expenditures
for the Medical Assistance Program,” which summarizes actual Medicaid expenditures for each
quarter and is used by CMS to reimburse States for the Federal share of Medicaid expenditures.

Physician-Administered Drugs

Section 6002(a) of the Deficit Reduction Act of 2005 (DRA) amends section 1927 of the Act and
requires States, as of January 1, 2006, to collect and submit utilization data for single source
drugs administered by physicians so that States may obtain rebates for the drugs. 1 Single source
drugs are commonly referred to as “brand name drugs” and do not have generic equivalents.



1
 This provision of the DRA expands the requirement to certain multiple source drugs administered by physicians
after January 1, 2008.


                                                        1


Prior Office of Inspector General Reports

In 2005, we issued a report on the results of audits of the Medicaid drug rebate programs in
49 States and the District of Columbia. 2 Those audits found that only four States had no
weaknesses in accountability for and internal controls over their drug rebate programs. As a
result of the weaknesses, we concluded that States lacked adequate assurance that all of the drug
rebates due to the States were properly recorded and collected. Additionally, CMS did not have
reliable information from the States to properly monitor the drug rebate program.

In our previous audit of the New Jersey drug rebate program, we determined that the Department
of Human Services (the State agency) had adequate controls over its drug rebate program, with
the exceptions of reporting rebate activity on its Form CMS-64.9R, offsetting rebate collections
against Federal expenditures, resolving disputes timely, estimating and accruing interest on late
or disputed rebates, and reporting interest collected on late rebate payments to CMS. 3

We recommended that the State agency:

       •		 revise its reporting procedures to ensure that Form CMS-64.9R is accurate and complete;

       •		 reduce its drawdowns of Federal funds through timely consideration of the drug rebates it
           has collected;

       •		 implement procedures to offer a hearing mechanism when dispute resolution procedures
           are not successful within 60 days;

       •		 estimate and accrue interest on overdue rebate balances; and

       •		 report $1,134,372 ($567,186 Federal share) of interest collected on late rebate payments
           as of June 30, 2002, and update its procedures to ensure that interest earned on late rebate
           payments in subsequent periods is reported on its Form CMS-64.

The State agency agreed with our findings and recommendations with one exception: the State
agency did not agree with our recommendation to estimate and accrue interest on overdue rebate
balances. The State agency stated that invoicing interest is complex and subject to continual rate
adjustments or changes in units.

New Jersey Drug Rebate Program

In New Jersey, three offices within the State agency’s Division of Medical Assistance and Health
Services (the Office of Information and Telecommunications, the Office of Utilization
Management, and the Bureau of Financial Reporting) are responsible for performing all drug
rebate program functions other than receiving rebate funds. The State agency reported an

2
 “Multistate Review of Medicaid Drug Rebate Programs” (A-06-03-00048), issued July 6, 2005; Arizona was not
included because it did not operate a drug rebate program.
3
    “Review of the Medicaid Drug Rebate Program in New Jersey” (A-02-03-01024), issued October 14, 2004.


                                                        2


outstanding drug rebate balance of $57,768,028 on its June 30, 2006, Form CMS-64.9R. In
addition, for the quarter ending June 30, 2006, the State agency reported rebate billings of
$35,024,336 and collections of $74,636,320.

Physician-administered drugs were billed to the State Medicaid program on a physician claim
form using procedure codes that are part of the Healthcare Common Procedure Coding System. 4
The NDC is not included on the physician claim form. The procedure code identifies a drug by
its active ingredient(s) and identifies the number of drug units (billing units) allowed per
reimbursement for that procedure code. Because rebates are calculated and paid based on NDCs,
each procedure code must be converted to an NDC. Additionally, the billing units for a
procedure code may differ from the units used for rebate purposes (e.g., grams versus liters).
Therefore, to determine rebates, the procedure codes must be converted into NDCs for single
source drugs, and procedure code billing units must be converted into equivalent NDC billing
units.

This current review of the New Jersey drug rebate program is part of a nationwide series of
reviews conducted to determine whether States have addressed the weaknesses in accountability
for and internal controls over their drug rebate programs found in the previous reviews.
Additionally, because the DRA required States as of January 2006 to begin collecting rebates on
single source drugs administered by physicians, this series of reviews will also determine
whether States have complied with the new requirement.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the State agency had (1) implemented the
recommendations made in our previous audit of the New Jersey drug rebate program and
(2) established controls over collecting rebates on single source drugs administered by
physicians.

Scope

We reviewed the State agency’s current policies, procedures, and controls over the drug rebate
program and the accounts receivable data reported on its Form CMS-64.9R as of June 30, 2006.

We performed our fieldwork at the State agency in Trenton, New Jersey, from October 2007
through January 2008.




4
 Beginning August 6, 2007, New Jersey required physicians to use NDCs to bill Medicaid for physician-
administered drugs.


                                                       3


Methodology

To accomplish our objectives, we:

   •		 reviewed section 1927 of the Act, section 6002(a) of the DRA, CMS guidance issued to
       State Medicaid directors and other information pertaining to the Medicaid drug rebate
       program;

   •		 reviewed the policies and procedures related to the State agency’s drug rebate accounts
       receivable system;

   •		 interviewed State agency officials to determine the policies, procedures, and controls that
       related to the Medicaid drug rebate program;

   •		 reviewed copies of Form CMS-64.9R for the period July 1, 2005, through June 30, 2006;

   •		 reviewed accounts receivable records as of June 30, 2006;

   •		 traced interest collected on late rebate payments to Forms CMS-64 for the period July 1,
       2005, through June 30, 2006;

   •		 reviewed State regulations to determine whether a hearing mechanism for dispute 

       resolution was available to drug manufacturers; 


   •		 reviewed documentation related to the State agency’s drawdown of Federal funds for the
       period July 1, 2005, through June 30, 2006;

   •		 interviewed State agency staff to determine the processes used in converting physician
       services claims data into drug rebate data related to single source drugs administered by
       physicians; and

   •		 reviewed rebate billings and reimbursements for procedure codes related to single source
       drugs administered by physicians for the period January 1 through June 30, 2006.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                         FINDINGS AND RECOMMENDATIONS

The State agency implemented the recommendations from our prior audit that related to drawing
down Federal funds, offering a hearing mechanism for resolving disputes, and reporting interest
on late rebate payments on Form CMS-64. Although the State agency agreed to revise its
procedures for the preparation of its Form CMS-64.9R, no revisions have been made. The State


                                                4


agency also did not implement our recommendation to estimate and accrue interest. The State
agency established controls over collecting rebates on single source drugs administered by
physicians.

IMPLEMENTATION OF PRIOR RECOMMENDATIONS

In our previous audit of the New Jersey drug rebate program, we determined that the State
agency did not:

   •		 accurately report information on its Form CMS-64.9R;

   •		 consider drug rebate collections when determining its needs for drawdown of Federal
       funds;

   •		 implement a hearing mechanism for dispute resolutions;

   •		 have processes to estimate or accrue interest on late or disputed rebates; and

   •		 report interest collected on late rebate payments to CMS.

Since our prior audit, the State agency has (1) reduced its drawdowns of Federal funds by the
amount of drug rebates collected, (2) made available to manufacturers a hearing mechanism
when dispute resolution procedures are not successful within 60 days, and (3) reported interest
collected on late rebate payments on its Form CMS-64. However, as of the end of our fieldwork,
the State agency had not revised its reporting procedures to ensure that its Form CMS-64.9R is
accurate or implemented a process to estimate or accrue interest for late or disputed rebates.

To facilitate periodic monitoring of rebate activity by CMS, States are required to report their
quarterly rebate invoices and collections on Form CMS-64.9R. Section 2500.6 of the CMS State
Medicaid manual instructs States to present a complete, accurate, and full disclosure of all drug
rebates and collections. States are also instructed to report rebates and collections in the quarter
invoiced. The State agency did not report current-quarter drug rebate activity on its Form CMS-
64.9R. Rather, the State agency reported the current quarter’s drug rebate activity as prior period
adjustments in the quarter that the service was provided instead of the quarter the rebate was
invoiced. Without accurate information on the State agency’s rebate activity, CMS cannot
provide adequate oversight of the Medicaid drug rebate program.

Pursuant to section V(b) of the rebate agreement between manufacturers and CMS,
manufacturers are required to pay interest on late or disputed rebates. In this respect, CMS
Medicaid Drug Rebate Program Release No. 65 states that it is the manufacturers’ responsibility
to calculate the amount of interest due States on late rebate payments and the State’s
responsibility to track the collection of interest due. While the State agency verified some
interest payments, its procedures were inadequate to ensure that the entire amount of interest due
from manufacturers was collected. The State agency relied upon manufacturers to compute and
submit the proper amount of interest with its overdue rebate payments. However, if the amount
of total interest due was not received, additional steps were not always taken by the State agency


                                                 5


to collect the correct amount of interest. As a result, the State agency could not assure that all
interest due on overdue rebates was paid.

PHYSICIAN-ADMINISTERED SINGLE SOURCE DRUGS

The State agency established controls over collecting rebates for single source drugs
administered by physicians as required by the DRA. The State agency paid $3,786,640 in claims
for physician-administered drugs during the period January through June 2006 and billed
manufacturers for rebates for these drugs totaling $312,660.

RECOMMENDATIONS

We recommend that the State agency:

   •		 revise its reporting procedures to ensure that Form CMS-64.9R is accurate, and

   •		 improve its procedures to ensure the entire amount of interest due from manufacturers on
       late or disputed rebates is collected.

STATE AGENCY COMMENTS

In its June 10, 2008, written comments on the draft report, the State agency concurred with our
recommendations. The State agency’s comments appear in their entirety as the Appendix.




                                                  6


APPENDIX 

                                                                                                  APPENDIX 

                                                                                                   Page 1 of 2 





                                        ~
                                        ~
                                lHuu    N,w 1l.rsty
                                Matt at N"" .!lrrvy
                              D~PAA'lMENT 01' HWAN
                              DerAltlMENT             SnvlCl!S
                                              HI,IMAN SEIlVICI!S
                    DIVISION
                    DIVISlOIi OF
                              Of' MEDICALAsSlSTANC£AND
                                  MEoICALASSlSTANCE AND HEAl.TH SEIlvJCes
                                                        HEALTH SUVlc;eS
                                            PO Box 71l
                                                   711
                                   T~ HI 01625-07
                                   Ttt.Il)IlOtl          11
                                                 O'62S-07I~                                JDNrnVua
                                  Tf.LI_I·1OO-3.s6-U61
                                  'Tl~     1-lOO-3S6-U61                                    C_ ' .. ,

                                                                                           _L"""
                                                                                            "-
                                       June 10, 2008


      P. Edert
James P.
Regional Inspector General for Audit SeNices
RegionallnspectOf                    services
Department of Health and Ht.man
                          Hunan SeNlces
                                SeMces
OffICe of Inspector General
OffICe of Audit Services
Region II
Jacob K. Javlts Federal Bundlng
                        Building - Room 3900
New York, NY 10278

Report Number     A·02~N)10S6
                  A.02~7.o 10S6


Dear Mr. Edert
         Eder1:

This is
      if> in response to your correspondence of ApriApril 2: 2008 concerning
                                                                   coooerning the Department
of Health and Human Services,                                General's (OIG) draft audit report
                         Sef'Yices, Office of the Inspector Geneml's
           "Follow-Up Audit of the Medicaid Drug Rebale Progf'am
entitled "Fono-Up                                             Progtam In in New Jersey.'
                                                                                Jersey: YOlA'"
                                                                                          YOlK
                    opportunity to comment 00
        proYkles an opporturity
letter provides                                on the dntfl
                                                      draft audit repor!.
                                                                  reporl .

                 co~ Indicates the State
The draft report correctly              Stale agency inplemented the recommendatlons
                                                                         recommendations
                            reated to drawing down Federal funds, offering a hearing
from the prior aUdit that rested
mechanism for resolving disputes                               tate rebate payments
                           d isputes and reporting interest on late        paymenls on Its
                                                                                       lis
Form CMS-64.
     CMS-64 .       AdditionallY,
                    Additionally, the Stale
                                       State agency established controls over collecting
rebates on single
            sk'Igle source drugs
                            dNQs admInistered
                                    administered by physicians.
                                                      physicians. However.
                                                                  However, this draft
                                                                                draM report
indudes two findings and recommendations. The auditor's findings Indicate the Stale   St<1te
does not correclty
         correctty report drug rebale                     CMS~4R end
                                  rebate activity on Form CMS-64R   <1M Ihe
                                                                        the State
                                                                            Stato could not
assure thai aliloterest
            all Interest due 00
                              on overdue rebates
                                          reb<1tes was paid.
                                                        p<1ld.

    st.mmary, the recommendations contained in the report and our responses are
 In summary,
 provided below:

 1.    New Jersey should revise its reporting procedures to ensure·
                                                            ensure that Its Form
                                                                            Fo rm CMS-
                                                                                  eMS-
       ts aceurate.
 64.9R is aceurs.te.

            witt make the necessary revisions.
 New Jersey wlll                    r.visio1t5 to compty with the            requi~ments
                                                                             requl~ments of
 Fonn CMS·64.9R to ensure its accuracy.
                                                                                           APPENDIX 

                                                                                            Page 2 of 2 





James P. Edert
June 10. 2008
Jt.ne
Page
P ... 22



2.                  should improve Its procedures to erm.e
       New Jersey shook!                                 ensUfe the entire 81l'lOUnt
                                                                           amount or of
                                                              colleCted.
interest due from manufacturers on lale or disputed claims Is col)ected.
      Jersey will examine interest pa:f"'!ent.
New Jerse~                          payments more closefy
                                                      closflly to ensure Interest
              are in accordance with gllidelines
calculations life                    lIuidelines and regulations established byb~
eMS. Procedures will be "reviewed
                           reviewed to ensu...
                                        ensure interest
                                                inlorcst collections life
                                                                     are accurate,
efficient and effective.
otrklent

                              comment on this draft report is greatly
    opportUnity to review and corrvnent
The opportunity                                                 gleatly appreciated.
                                                                        apprecialed. If
you have any               req~re additionallnfon'nalion,
         arr; questions or require addi\ional information, please oontad
                                                                  contact me eM'
                                                                              or David
                                                                                  Da'o4d
Lowenthal 31 609-588-7933.
          al600--588-7933.

                                        Sincerely,
                                        Sincerely,



                                       .~~
                                       91::~
                                        Director
                                                      ,,
JRG:
JRG: l
~      JennHerVe~z
       JennHerVe~l
       David Lowenthal
                Dill
       Patricia Dix
       Rebecca Jos~n
                 Joslin
